Report No. D-2007-084          April 11, 2007




     Acquisition of the Navy Rapid Airborne
              Mine Clearance System
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AIMO                  Aircraft Integrated Maintenance Operations
ALMDS                 Airborne Laser Mine Detection System
AMNS                  Airborne Mine Neutralization System
AN/AQS-20X            Sonar Mine Detecting Set
CJCS                  Chairman of the Joint Chiefs of Staff
COMOPTEVFOR           Commander, Operational Test and Evaluation Force
CPD                   Capability Production Document
DCMA                  Defense Contract Management Agency
GAO                   Government Accountability Office
LRIP                  Low-Rate Initial Production
MCM                   Mine Countermeasures
MOA                   Memorandum of Agreement
MW                    Mine Warfare
NBC                   Nuclear, Biological, and Chemical
NSWC-PC               Naval Surface Warfare Center, Panama City
OASIS                 Organic Airborne and Surface Influence Sweep
RAMICS                Rapid Airborne Mine Clearance System
RMK                   Rapid Airborne Mine Clearance System Mission Kit
SDP                   Software Development Plan
               Department of Defense Office of Inspector General
Report No. D-2007-084                                                       April 11, 2007
   (Project No. D2006-D000AE-0153.000)

                    Acquisition of the Navy Rapid Airborne
                            Mine Clearance System

                                 Executive Summary

Why You Should Read This Report. This report discusses management issues
associated with defining capability requirements, planning and executing tests, and
defining responsibilities of the Defense Contract Management Agency in support of the
low-rate initial production decision for the Navy Rapid Airborne Mine Clearance
System (RAMICS).

Background. RAMICS is a non-towed airborne mine neutralization system. The system
will operate from an MH-60S Organic Airborne Mine Countermeasures Helicopter
deployed from the Littoral Combat Ship in the Carrier Strike and Expeditionary Strike
Groups. When fielded, RAMICS will provide the Navy with rapid-response, surface and
near-surface mine reacquisition and neutralization capabilities. The Program Manager,
Mine Warfare is developing RAMICS in preparation for the low-rate initial production
decision that is planned for August 2008. The Naval Surface Warfare Center, Panama
City, Florida, is providing technical direction support to the Program Manager, Mine
Warfare by developing capability requirements for RAMICS and monitoring the work of
several subcontractors developing the system. The milestone decision authority for the
program is the Navy Acquisition Executive. As of December 2006, the program’s
funding to develop and procure the system totaled $327.0 million, with $127.3 million in
research, development, test, and evaluation funds and $199.7 million in procurement
funds.

Results. The Program Manager, Mine Warfare plans to hold the low-rate initial
production decision review with the milestone decision authority in August 2008 before
completing needed testing and program documentation. Specifically, the Program
Manager, Mine Warfare will not have completed developmental testing to demonstrate
the ability to integrate RAMICS with the MH-60S helicopter, conducted an operational
assessment to gauge the system’s operational effectiveness and suitability, or completed
key program planning documents. Until the Program Manager, Mine Warfare completes
and obtains this needed testing and program documentation, the Navy is at risk of
acquiring four low-rate initial production units of unknown operational performance at an
estimated cost of $15 million. These units may not satisfy warfighter requirements and
could require costly retrofits (finding A).

The Naval Surface Weapons Center staff did not fully define significant system
capability requirements, the required number of RAMICS, and the expected life-cycle
costs in the draft capability production document prepared to support the low-rate initial
production decision planned for August 2008. Until the Naval Surface Warfare Center
staff updates the draft capability production document to fully define required system
capabilities,
quantities, and life-cycle costs, the Navy will be unable to effectively plan and budget for
the system and verify through testing that RAMICS will satisfy essential warfighter
capability requirements (finding B).

The Commander, Defense Contract Management Agency, Aircraft Integrated
Maintenance Operations, Melbourne, Florida, and the Program Manager, Mine Warfare
established a memorandum of agreement that did not adequately define required Defense
Contract Management Agency support to the RAMICS program office. Additionally, the
Commander had not formulated a surveillance plan to implement the program support
defined in the memorandum of agreement. With limited staff resources, the Commander
cannot fully support the Program Manager, Mine Warfare until the Commander and the
Program Manager update the memorandum of agreement to better define required
program support and the Commander formulates a surveillance plan (finding C).

The problems described in our findings resulted from material control weaknesses in the
management of RAMICS. The Background section discusses these material control
weaknesses.

During the audit, we also noted another item of interest concerning the management of
contractor incentive fees. Appendix E discusses how the program office for RAMICS
did not effectively link incentive fee criteria to the desired program outcomes on the
development contract with Northrop Grumman. Appendix E also discusses recent DoD
initiatives to ensure that DoD Components better manage incentive fees.

Management Comments and Audit Response. The Deputy Assistant Secretary of the
Navy for Integrated Warfare Systems responded for the Assistant Secretary of the Navy
(Research, Development, and Acquisition); the Deputy Chief of Naval Operations for
Resources, Requirements, and Assessment; the Commander, Naval Surface Warfare
Center, Panama City; and the Program Manager, Mine Warfare. The Deputy Assistant
Secretary concurred with, or proposed actions meeting the intent of, recommendations for
demonstrating that RAMICS is capable of reacquiring and neutralizing mines while in
flight and functioning with the MH-60S helicopter, updating the test and evaluation
master plan to include an operational assessment of RAMICS, and updating and
approving the draft systems engineering and software development plans before the low-
rate initial production decision review. The Deputy Assistant Secretary also concurred
with updating the draft capabilities production document to define computer memory and
processing margins in measurable and testable terms; to define relevant architecture
product descriptions; and to identify the number of RAMICS required for operations,
training, and maintenance, as well as the projected system life-cycle cost. Further, the
Deputy Assistant Secretary concurred with modifying the development contract to ensure
that the contractor designs RAMICS to meet the revised capability requirements. In
response to the Deputy Assistant Secretary’s comments, we revised
Recommendation B.3. to avoid requiring the Program Manager, Mine Warfare to
contract for nuclear, biological, and chemical capability requirements that the Navy no
longer considered valid for the RAMICS program. The Acting Director, Defense
Contract Management Agency and the Deputy Assistant Secretary concurred with, or
proposed actions meeting the intent of, recommendations for updating the memorandum
of agreement between their organizations to better define Defense Contract Management
Agency support to the Program Manager, Mine Warfare and to clearly delineate
responsibilities between the Defense Contract Management Agency and Navy technical
support representatives. Further, the Acting Director agreed to establish a surveillance
plan to describe oversight activities planned to support the RAMICS program. See the
Findings section of the report for a discussion of management comments and the
Management Comments section of the report for a complete text of the comments.
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     2

Review of Internal Controls                                                    2

Findings
     A. Testing Planned to Support the Low-Rate Initial Production Decision    3
     B. Defining Requirements in the Capability Production Document           13
     C. Establishing Defense Contract Management Agency Support
          Responsibilities                                                    21

Appendixes
     A. Scope and Methodology                                                 29
          Prior Coverage                                                      29
     B. Background Information                                                30
     C. Planned Integration Testing                                           35
     D. Architecture Product Descriptions                                     37
     E. Other Matter of Interest                                              38
     F. Report Distribution                                                   42

Management Comments
     Department of the Navy                                                   43
     Defense Contract Management Agency                                       49
Background
    The Navy Rapid Airborne Mine Clearance System (RAMICS) is a major system
    that is in the system development and demonstration phase of the acquisition
    process. The Program Manager, Mine Warfare (MW) was developing RAMICS
    in preparation for the low-rate initial production (LRIP) decision planned for
    August 2008.

    Mission and System Description. RAMICS is a non-towed airborne mine
    neutralization system. RAMICS will operate from a MH-60S Organic Airborne
    Mine Countermeasures helicopter deployed from the littoral combat ship in the
    Carrier Strike and Expeditionary Strike Groups. When fielded, RAMICS will
    provide the Navy with rapid-response, surface and near-surface mine
    reacquisition and neutralization capabilities. The RAMICS hardware and
    software will be integrated into the MH-60S helicopter through the installation of
    a RAMICS mission kit (RMK). Appendix B provides additional information on
    RAMICS, including an illustration of the RMK components integrated on the
    MH-60S helicopter.

    Related Organic Airborne Mine Countermeasures Systems. The Navy plans
    to develop and install four other related Organic Airborne Mine Countermeasures
    Systems separately on the MH-60S helicopter. The systems are the:

           •   Sonar Mine Detecting Set,

           •   Airborne Mine Neutralization System,

           •   Airborne Laser Mine Detection System, and

           •   Organic Airborne and Surface Influence Sweep.

    The four systems will work with RAMICS to perform the Navy’s mine detection
    and neutralization mission. Appendix B provides information on the missions of
    the four systems, including an illustration of the systems working with RAMICS
    to perform the mine neutralization mission.

    Program Management. The Program Manager, MW was developing RAMICS
    for the Naval Sea Systems Command. The Program Manager, Multi-Mission
    Helicopters, who reports to the Naval Air Systems Command, has responsibility
    for integrating the RMK with the MH-60S helicopter. The Navy Acquisition
    Executive is the milestone decision authority for the RAMICS LRIP decision.

    Navy Technical Direction and Testing Support. The Naval Surface Warfare
    Center, Panama City (NSWC-PC) assigned engineers with responsibility to
    provide technical direction to the Program Manager, MW to develop capability
    requirements for RAMICS and monitor the work of several RAMICS
    subcontractors. NSWC-PC is the recognized world leader in mine warfare
    expertise and facilities.




                                         1
     Funding and Contract Data. As of December 2006, the program’s funding to
     develop and procure the system totaled $327.0 million, with $127.3 million in
     research, development, test, and evaluation funds, $189.2 million in procurement
     funds for hardware, and $10.5 million in procurement funds for ammunition. The
     Navy awarded a contract to Northrop Grumman on August 23, 2002, for $36.9
     million to develop RAMICS. On December 14, 2005, the Navy increased the
     contract value to $54.4 million through a contract modification.

Objectives
     The audit objective was to evaluate the overall management of the Navy
     RAMICS program. Because the program was in the system development and
     demonstration phase of the acquisition process, we determined whether
     management was cost-effectively developing and readying the program for the
     LRIP phase of the acquisition process. We also evaluated the managers’ internal
     controls as they related to the audit objective. See Appendix A for a discussion of
     the audit scope and methodology and prior coverage. See Appendix E for an
     other matter of interest related to program office use of contract incentive fees.


Review of Internal Controls

     We determined that material internal control weaknesses existed in the
     management of RAMICS, as defined by DoD Instruction 5010.40, “Managers’
     Internal Control (MIC) Program Procedures,” January 4, 2006. The DoD 5000
     series of guidance requires the Program Manager, MW to exercise discretion and
     prudent business judgment in structuring a tailored, responsive, and innovative
     program. Although the Navy’s original planning for RAMICS involved fully
     developing and testing the system before the LRIP decision, the Navy Acquisition
     Executive approved the Program Manager, MW proposed exit criteria for the
     LRIP decision. Those exit criteria did not require the Program Manager, MW to
     demonstrate that RAMICS could be integrated with the MH-60S helicopter.
     According to the Program Manager, MW staff, the Navy Acquisition Executive
     decided to reduce funding on the RAMICS program to fund higher priority mine
     warfare countermeasures programs. Planning the progression of RAMICS from
     development into LRIP without fully defining system capability requirements,
     fully demonstrating required system capabilities, completing key program
     planning documents, and efficiently and effectively using the program
     surveillance resources of the Defense Contract Management Agency (DCMA) is
     not prudent business practice. Implementing our recommendations will improve
     internal controls by ensuring that the Navy more effectively and efficiently
     readies RAMICS for LRIP. We will provide a copy of this report to the senior
     Navy official responsible for internal controls in the Department of the Navy.




                                          2
            A. Testing Planned to Support the Low-
               Rate Initial Production Decision
            The Program Manager, MW plans to hold the LRIP decision review with
            the milestone decision authority in August 2008, before completing
            needed developmental testing to demonstrate the ability to integrate the
            RMK with the MH-60S helicopter and an operational assessment to gauge
            the operational effectiveness and suitability of RAMICS. Also, the
            Program Manager, MW has not completed and obtained key program
            planning documents that testers need to support the RAMICS test
            program. These conditions occurred because:

                    •   the Navy Acquisition Executive approved the Program
                        Manager, MW proposed exit criteria, which did not require the
                        Program Manager, MW to demonstrate that RAMICS could be
                        integrated with the MH-60S helicopter before the LRIP
                        decision;

                    •   the Program Manager, MW did not reach an agreement with
                        the Navy Commander, Operational Test and Evaluation Force
                        (COMOPTEVFOR) on the program achievements necessary to
                        support achieving a meaningful operational assessment; and

                    •   the Program Manager, MW did not fully implement program
                        documentation requirements in the DOD 5000 series of
                        guidance.

            As a result, the Navy could commit to acquiring four LRIP units of
            RAMICS of unknown operational performance at an estimated cost of
            $15 million. Those units may not satisfy warfighter requirements and
            could require costly retrofits.


DoD Policy for Low-Rate Initial Production
     DOD Instruction 5000.2, “Operation of the Defense Acquisition System,”
     May 12, 2003, states that the two purposes of LRIP are to demonstrate adequate
     and efficient manufacturing capability at the completion of manufacturing
     development and to produce the minimum quantity necessary to provide
     production-representative articles for initial operational test and evaluation. The
     Instruction states that before acquisition programs enter LRIP, they must
     demonstrate acceptable performance in the development, test and evaluation, and
     operational assessment phases of the acquisition process. Furthermore, the
     Instruction requires that DoD Components perform an independent operational
     assessment before releasing each successive increment to the user because it




                                          3
     provides the warfighter and acquisition decision makers with a prediction of the
     operational effectiveness and suitability of a weapon system before an investment
     is made in production units for operational testing.


Tests to Demonstrate the Ability to Integrate the Rapid
  Airborne Mine Clearance System Mission Kit
     Since February 2003, the Program Manager, MW reduced the number of tests
     planned to show that the RMK could be integrated with the MH-60S helicopter
     before the planned LRIP decision in August 2008. The reduction in planned
     integration testing is evident through a comparison of the following RAMICS test
     documents:

            •   Test and Evaluation Master Plan Number 1644, which the
                DoD Director, Operational Test and Evaluation approved on
                February 6, 2003;

            •   Test and Evaluation Master Plan Number 1644, Draft Revision A,
                dated August 30, 2005; and

            •   Test planning since August 30, 2005.

     Test and Evaluation Master Plan Number 1644. Test and Evaluation Master
     Plan Number 1644 designated DT-IIC the third and final developmental test
     phase before the LRIP decision. The DT-IIC test phase was to test the RMK
     while it was fully integrated with the MH-60S helicopter. The objectives of the
     DT-IIC test phase were to verify that the RAMICS components were properly
     integrated with each other and that the RMK was properly integrated with the
     helicopter. DT-IIC was to include ground and flight testing that focused on
     proper operation of the RMK when integrated with the MH-60S helicopter.
     Flight testing was to include firing RAMICS at small, medium, and large inert
     targets placed at water depths defined in the “Operational Requirements
     Document for the Rapid Airborne Mine Clearance System (RAMICS)
     Acquisition Category II Prepared for Milestone B Decision,” December 11, 2001.
     The DT-IIC test phase was to be completed during the second quarter of 2005 and
     the LRIP decision was planned to occur during the third quarter of 2005.

     Draft Revision A of Test and Evaluation Master Plan Number 1644. Draft
     Revision A, which the Program Manager, MW formulated in August 2005 after
     the Navy Acquisition Executive approved a rebaseline of the RAMICS program
     in April 2005, significantly reduced the level of developmental testing planned
     before the LRIP decision review. Instead of three developmental test phases
     before the LRIP decision review, Draft Revision A specified that the DT-IIA test
     phase would be the only developmental test phase conducted before the LRIP
     decision. Unlike the DT-IIC test phase in the original Test and Evaluation Master
     Plan 1644, the DT-IIA test phase involved operating RAMICS independently and
     the RMK would not be fully integrated with the MH-60S helicopter. Draft
     Revision A stated that the DT-IIA test phase would serve as the initial flight test
     period for the RMK and that testers may need additional time for demonstrating


                                          4
basic system functionality and for verifying system performance. Draft Revision
A further stated that the focus of the DT-IIA test phase was the RAMICS
targeting sensor subsystem and would include the fire control subsystem and the
gun subsystem, if available. Draft Revision A did not specify a planned
completion date for the DT-IIA test phase. Program office staff stated that Draft
Revision A did not progress beyond internal program office review.

Test Planning Since August 2005. Since August 2005, the Program Manager,
MW had not revised developmental test plans to include flight testing before the
LRIP decision that focused on proper operation and functioning of the RMK
when integrated with the MH-60S helicopter. Additionally, the Program
Manager, MW revised test plans were still mostly in the conceptual stage, with
the test leader for the Program Manager, MW having developed a draft timeline
showing revised test schedule leading up to the LRIP decision review. Five of the
16 conceptually planned tests included testing various levels of RMK integration
with the MH-60S helicopter. The Program Manager, MW stated that testing staff
would fire the gun to determine the blast pressure that would be exerted on a
helicopter platform. Also, subject to funding availability and resolution of
contractual issues, the Program Manager, MW hoped to demonstrate firing the
gun in flight from an alternative (non-MH-60S) helicopter. Appendix C provides
descriptions of the five conceptually planned tests to evaluate RMK integration
with the MH-60S helicopter.

        Completing Integration Testing to Include Firing the Rapid Airborne
Mine Countermeasures System. Under the conceptual test planning, the test
phase called Weapon Systems Integration Team Contractor Test would still be
ongoing at the time of the LRIP decision review in August 2008. The Weapon
Systems Integration Team Contractor Test was planned for March through
December 2008. The test leader for the Program Manager, MW stated that the
Weapon Systems Integration Team Contractor Test would culminate with the
RMK integrated with the MH-60S helicopter and firing on mine targets. The
Weapon Systems Integration Team Contractor Test would also be used to verify
that RAMICS cockpit changes, safety controls, and mechanical interfaces did not
adversely affect aircraft performance. The test would also allow the contractor to
collect RAMICS reliability and maintainability data. Because the LRIP decision
review is planned to occur 3 months before the Weapon Systems Integration
Team Contractor Test phase ends, the milestone decision authority will not have
complete developmental test results providing an analysis of RAMICS
performance when integrated with and firing from the MH-60S helicopter.

        Contracting for Planned Contractor Tests. The RAMICS program
office had placed on contract with Northrop Grumman 6 of the 16 planned tests to
occur before the LRIP decision review. Of the remaining 10 planned tests, 4
involved integration of RAMICS with the MH-60S helicopter, while the other 6
involved testing RAMICS in a stand-alone mode. The descriptions of the four
planned tests involving integration of RAMICS are provided in Appendix C and
were based on statements from the test leader for the Program Manager, MW
since no formal, written test descriptions existed.




                                     5
Exit Criteria for Low-Rate Initial Production Decision
     Testing staffs from the offices of the Program Manager, MW and the Program
     Manager, Multi-Mission Helicopters did not believe that integration testing had to
     be completed before the LRIP decision review because the approved exit criteria
     for the review allowed for a lesser level of program accomplishment. On
     April 26, 2005, the Navy Acquisition Executive approved exit criteria for the
     LRIP decision review that included requirements to:

            •   meet the operational requirement document thresholds for target
                reacquisition and neutralization, and

            •   define all MH-60S helicopter interfaces, as defined by the Program
                Manager, Multi-Mission Helicopters.

     Those exit criteria did not require the Program Manager, MW to demonstrate that
     RAMICS could be successfully integrated with and deployed from the MH-60S
     helicopter before the LRIP decision review. Specifically, the exit criteria for
     target reacquisition and neutralization did not specify operating the RAMICS
     system in flight. Also, the exit criteria for defining interfaces with the MH-60S
     helicopter did not specify successfully demonstrating actual RAMICS interfaces
     with the MH-60S helicopter.

     The Navy Acquisition Executive approved the above exit criteria as part of a
     restructure of the RAMICS program. The Navy Acquisition Executive allowed
     the program restructure because he had to reduce funding on the RAMICS
     program to fund higher priority airborne mine countermeasure programs. Further,
     at the time the Navy Acquisition Executive approved the exit criteria, a MH-60S
     helicopter was not identified as an available test resource to support
     demonstrating integration of the RMK.


Operational Assessment
     As of June 2006, the Program Manager, MW had not reached agreement with
     COMOPTEVFOR for conducting an operational assessment before the LRIP
     decision review as required by DoD Instruction 5000.2. Staff from
     COMOPTEVFOR stated that an agreement could not be reached for
     COMOPTEVFOR to accomplish an operational assessment before the LRIP
     decision review because the RAMICS program office had not agreed to:

            •   obtain an MH-60S helicopter to support an operational assessment;

            •   allow time for the Naval Air Systems Command Flight Clearance
                Office to grant clearance for firing RAMICS from the MH-60S
                helicopter; and




                                         6
           •   allow RAMICS maturity and accomplishment to progress far enough
               to support a meaningful operational assessment, to include gathering
               sufficiently representative reliability, maintainability, and
               supportability data.

    As documented in the latest conceptual test planning for RAMICS,
    COMOPTEVFOR will conduct only one operational test period for RAMICS,
    which is planned for January 2010, in support of the RAMICS full-rate
    production decision review.

    The COMOPTEVFOR staff stated that they had expressed concern regarding
    performing an operational assessment without firing the gun while it was
    integrated with the MH-60S helicopter. The staff further stated that the Director,
    Operational Test and Evaluation would likely not sign a test plan for an
    operational assessment that was not preceded by firing RAMICS from the
    MH-60S helicopter, especially if the Program Manager, MW wanted to attach an
    LRIP buy (the purchase of four RAMICS) to the operational assessment. The
    Program Manager, MW staff agreed that firing RAMICS from the MH-60S is the
    ultimate goal but stated that availability of an MH-60S test asset that was cleared
    to fire the gun was a key issue for achieving the firing. The Program Manager,
    MW and COMOPTEVFOR had not yet agreed to the testing strategy to support
    the LRIP decision. We agree with the COMOPTEVFOR staff’s stated concerns
    and believe that firing RAMICS from the MH-60S helicopter during
    developmental testing would demonstrate that RAMICS is mature and ready for a
    meaningful operational assessment.

    As of December 2006, the Program Manager, MW; the Program Manager, Multi-
    Mission Helicopters; and staff at COMOPTEVFOR had made some progress
    towards scheduling and planning a test strategy to include an operational
    assessment to be performed before the LRIP decision review. Specifically, the
    Program Manager, MW requested and received funding to support having an
    operational assessment in FY 2008 before the LRIP decision. Also, officials at
    the Multi-Mission Helicopters Program Office stated that they identified an
    MH-60S helicopter that could be used to support an operational assessment.
    Further, staff at COMOPTEVFOR stated that they were drafting a memorandum
    of understanding that they and the Program Manager, MW could use to define the
    agreed terms for the operational assessment.


Planning Documents Needed to Support the Rapid Airborne
  Mine Clearance System Test Program
    In addition to the test and evaluation master plan discussed previously, the
    Program Manager, MW had not updated two other key documents needed to
    support the RAMICS test program: the systems engineering plan and the
    software development plan (SDP).

    Systems Engineering Plan. Under Secretary of Defense for Acquisition,
    Technology, and Logistics memorandum, “Policy for Systems Engineering in
    DoD,” February 20, 2004, requires that program managers for all acquisition


                                         7
programs develop a systems engineering plan for milestone decision authority
approval in conjunction with each milestone review, and integrated with the
acquisition strategy. Additionally, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued another memorandum,
“Implementing Systems Engineering Plans in DoD - Interim Guidance,”
March 30, 2004, that stated that program managers should establish the systems
engineering plan early in the program’s life cycle to guide all technical aspects of
an acquisition program. The systems engineering plan provides significant input
to the program manager for successfully planning the test and evaluation of a
system. Specifically, the Defense Acquisition Guidebook states that the test and
evaluation master plan should be consistent with and complimentary to the
systems engineering plan.

As of December 2006, the Program Manager, MW had not directed the contractor
to update the draft “Rapid Airborne Mine Clearance System (RAMICS) Systems
Development and Demonstration (SD&D) Systems Engineering Management
Plan (SEMP), Draft Revision B,” April 2004, to meet systems engineering plan
requirements, as directed in the Under Secretary of Defense guidance.
Accordingly, the contractor did not plan to update the systems engineering
management plan to meet systems engineering plan requirements until after
RAMICS was ready for integration with the MH-60S helicopter.

The Program Manager, MW needs to direct the contractor to update the systems
engineering management plan because it does not include key information that is
required to be included in the systems engineering plan. Specifically, Under
Secretary of Defense for Acquisition, Technology, and Logistics memorandum,
“Policy Addendum for Systems Engineering,” October 22, 2004, requires that
technical reviews of program progress be event-driven (rather than schedule-
driven) and conducted when the system under development meets the review
entrance criteria documented in the systems engineering plan. The systems
engineering management plan did not include entrance criteria for holding
technical reviews. It stated that the contractor will hold formal reviews at
locations and dates the contractor proposes and the Program Management
Integrated Product Team approves. Additionally, the October 2004 policy
memorandum required that technical reviews “…include participation by subject
matter experts who are independent of the program ([that is], peer review) unless
specifically waived by the SEP [systems engineering plan] approval authority….”
Although the Systems Engineering Management Plan did require peer reviews
“…both internal and external to an IPT [integrated product team],” it did not
specify that subject matter experts who were independent of the program would
participate in the technical reviews.

Software Development Plan. The contract statement of work required the
contractor to develop an SDP and RAMICS software in accordance with the
processes and requirements of the Software Engineering Institute “Key Practices
of the Capability Maturity Model, Version 1.1,” February 1993 (the Capability
Maturity Model). The Capability Maturity Model requires the contractor to use
the SDP to:

   •   track software activities, communicate status, and revise plans; and



                                     8
       •   determine progress by comparing actual software size, effort, cost, and
           schedule with the SDP when software products are completed and
           milestones are accomplished.

    Additionally, the Capability Maturity Model states that contractors may revise the
    SDP to reflect actual accomplishments, replan remaining work, or support action
    to improve performance. Further, the SDP provides significant input to the
    Program Manager, MW for successfully planning the software test and evaluation
    for a system. Specifically, paragraph 1.3 of the draft “Software Development
    Plan (SDP) for the Rapid Airborne Mine Clearance System (RAMICS) program,
    Revision Draft A,” August 4, 2003, states that it covers aspects of conducting
    software development activities including testing. It further states that updates to
    the SDP must be coordinated through the Systems Engineering Integration and
    Test Team.

    As of December 2006, the Program Manager, MW had not directed the contractor
    to update the draft SDP to reflect program accomplishments and to replan
    remaining work. The contractor needed to update the draft SDP because in June
    2005, the Navy Acquisition Executive approved RAMICS Acquisition Program
    Baseline Change 2 to lengthen the program acquisition schedule and increase the
    program cost for completing the system development and demonstration phase.
    Thus, the contractor needed to update the SDP to enable Navy and contractor
    management to more effectively use the SDP for tracking software activities,
    tracking progress, and planning remaining work.


Conclusion
    If the Program Manager, MW does not complete required developmental and
    operational testing before the LRIP decision review, the milestone decision
    authority will not have test results to show that RAMICS can be successfully
    integrated with the MH-60S helicopter. Without having an operational
    assessment from COMOPTEVFOR, the milestone decision authority will not
    have an independent assessment of risk factors to gauge whether RAMICS will be
    operationally effective and suitable. Early approval to allow RAMICS to enter
    into LRIP without an operational assessment could also lead to unplanned retrofit
    expenses, production line breaks, delivery of equipment that will not meet the
    user’s needs, and LRIP units that will not pass the operational evaluation that is
    needed to support a positive full-rate production decision. To remedy this
    situation, testers need updated and completed program documentation to
    accomplish required developmental and operational testing before the LRIP
    decision review. If required developmental and operational testing is not
    conducted, the Navy risks premature commitment to LRIP of four RAMICS units
    estimated to cost up to $15 million.




                                         9
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Assistant Secretary of the Navy (Research,
    Development, and Acquisition):

           a. Revise the Rapid Airborne Mine Clearance System exit criteria for
    the low-rate initial production decision review to require the Program
    Manager, Mine Warfare to obtain developmental test results and an
    operational assessment that:

                 (1) Demonstrate the capability of the Rapid Airborne Mine
    Clearance System to reacquire and neutralize mines while in flight on the
    MH-60S helicopter.

                  (2) Demonstrate Rapid Airborne Mine Clearance System can
    operate and function with the MH-60S helicopter.

    Management Comments. The Deputy Assistant Secretary of the Navy for
    Integrated Warfare Systems, responding for the Assistant Secretary of the Navy
    (Research, Development, and Acquisition), partially concurred. She stated that
    although she considers the existing exit criteria adequate, the program manager
    will conduct developmental testing and have an operational assessment performed
    that will provide the recommended test results to the milestone decision authority
    to support the LRIP decision.

    The program manager plans to use an alternative helicopter, the H-3, in addition
    to the MH-60S, to conduct developmental testing and for use in performing the
    operational assessment for RAMICS. The Deputy Assistant Secretary stated that
    the H-3 helicopter’s planned RAMICS installation and gross weight made it a
    suitable alternative to the MH-60S helicopter. The program manager will use the
    H-3 helicopter in developmental testing to validate RAMICS sensor performance
    and to demonstrate the RAMICS capability to reacquire and neutralize mines
    while in flight, in support of the operational assessment.

    The Deputy Assistant Secretary stated that the program manager will use the MH-
    60S helicopter in Weapon System Integration Team Contractor Testing to
    demonstrate the operation of RAMICS as integrated with the helicopter. She
    explained that the contractor will conduct this testing in several phases. The first
    test phase will consist of verifying the communication paths between RAMICS
    and the MH-60S. The second phase will continue verifying the operation of
    RAMICS on the ground, as integrated on a production representative MH-60S
    airframe. The second phase will also include captive carriage and jettison tests to
    establish the flight envelope for the MH-60S when carrying RAMICS. The
    primary focus of subsequent test phases will determine if firing the gun has any
    adverse effects on the performance of the MH-60S airframe. The Deputy
    Assistant Secretary stated that through the contractor tests of RAMICS, the
    program manager will be able to determine the firing and lifetime firing limits of
    RAMICS on the MH-60S and whether there is any degradation in the weapon
    system’s performance.


                                        10
Audit Response. The Deputy Assistant Secretary’s comments met the intent of
the recommendation. Specifically, we believe that the Navy’s commitment
through the program manager to perform additional developmental testing and
have an operational assessment performed will provide necessary support for the
LRIP decision review. This testing will provide the milestone decision authority
with needed information on the capability of RAMICS to reacquire and neutralize
mines while in flight and whether it can operate and function with the MH-60S
helicopter. In our discussions with staff of COMOPTEVFOR, the staff stated that
the program manager’s revised test plans should provide them with valid test data
to prepare a meaningful operational assessment before the LRIP decision. Staff
from the Office of the Director, Operational Test and Evaluation also agreed that
the Navy’s revised test plans should support the preparation of a meaningful
operational assessment. The program manager’s staff also advised that the third
phase of the Weapon System Integration Team Contractor Test would be
completed before the LRIP decision review and would include RAMICS firing
the gun from the MH-60S helicopter. Because the Navy plans to have a
meaningful operational assessment accomplished before the LRIP decision,
revising the exit criteria is no longer necessary.

        b. Delay the low-rate initial production decision review, as necessary,
to enable the Program Manager, Mine Warfare to meet the revised exit
criteria identified in Recommendation A.1.a.

Management Comments. The Deputy Assistant Secretary nonconcurred, stating
that the Navy considers the existing RAMICS exit criteria to be adequate for the
LRIP decision.

Audit Response. Although we still consider the existing exit criteria inadequate,
as discussed in the finding, the Navy’s commitment to perform the additional
testing described in its response to Recommendation A.1.a. meets the intent of our
recommendation.

A.2. We recommend that the Program Manager, Mine Warfare:

       a. Coordinate with the Commander, Operational Test and Evaluation
Force to update the test and evaluation master plan to require an operational
assessment before the low-rate initial production decision review.

Management Comments. The Deputy Assistant Secretary concurred, stating
that the RAMICS program office is working with COMOPTEVFOR to generate a
compliant test strategy in the test and evaluation master plan. The Deputy
Assistant Secretary estimated that the test and evaluation master plan would be
updated and completed by December 31, 2007.

Audit Response. The Deputy Assistant Secretary’s comments were responsive to
the recommendation.




                                    11
      b. Update and obtain all required approvals for the following
program draft planning documents:

                (1) test evaluation master plan, including test event
descriptions,

                (2) systems engineering plan, and

                (3) software development plan

before the low-rate initial production decision planned for August 2008, in
accordance with DoD Instruction 5000.2, “Operation of the Defense
Acquisition System,” May 12, 2003; Under Secretary of Defense for
Acquisition, Technology, and Logistics memorandum, “Policy for Systems
Engineering in DoD,” February 20, 2004; and Software Engineering
Institute, “Key Practices of the Capability Maturity Model, Version 1.1,”
February 1993.

Management Comments. The Deputy Assistant Secretary concurred, stating
that the RAMICS program office estimated that the systems engineering plan and
the software development plan would be updated and completed by June 30,
2007, and March 31, 2007, respectively. In her response to Recommendation
A.2.a., the Deputy Assistant Secretary estimated that the test and evaluation
master plan would be updated and completed by December 31, 2007.

Audit Response. The Deputy Assistant Secretary’s comments were responsive to
the recommendation.




                                    12
            B. Defining Requirements in the
               Capability Production Document
            The Commander, NSWC-PC did not fully define significant system
            capability requirements in the draft capability production document (CPD)
            prepared to support the LRIP decision planned for August 2008.
            Specifically, the draft CPD did not fully define:

                   •   memory and processing capacities for computer hardware;

                   •   nuclear, biological, and chemical (NBC) survivability
                       requirements; and

                   •   required architecture product descriptions to define system
                       characteristics and performance for information exchange.

            Additionally, the draft CPD did not define the required number of
            RAMICS and the expected system life-cycle cost. This occurred because
            the NSWC-PC staff did not always follow established Chairman of the
            Joint Chiefs of Staff policy and guidance for defining system capability
            requirements in a manner verifiable through test and evaluation.
            Additionally, the Commander, NSWC-PC was unable to finalize the
            number of RAMICS required because of uncertainties regarding the
            planned number of littoral combat ships that will deploy MH-60S
            helicopters carrying RAMICS. As a result, Navy testers will not be able
            to verify through testing that the RAMICS will satisfy essential warfighter
            capability requirements before the LRIP decision. Moreover, until the
            Navy is able to define the number of required systems and the related life-
            cycle operational and support costs in the CPD, the Navy will not be able
            to effectively plan and budget for RAMICS.


Policies, Guidance, and Procedures for Defining Capability
  Requirements
     The DoD and the Navy have established policies, guidance, and procedures for
     defining capability requirements.

     DoD. Chairman of the Joint Chiefs of Staff (CJCS) Instruction 3170.01E, “Joint
     Capabilities Integration and Development System,” May 11, 2005, and CJCS
     Instruction 6212.01D, “Interoperability and Supportability of Information
     Technology and National Security Systems,” March 8, 2006, provide the primary
     DoD policies and procedures for defining system capability requirements through
     the Joint Capabilities Integration and Development System. CJCS Manual
     3170.01B, “Operation of the Joint Capabilities Integration and Development
     System,” May 11, 2005, provides procedures for implementing the Joint
     Capabilities Integration and Development System. DoD Design Criteria Standard



                                        13
    Military Standard 1472F, “Human Engineering,” August 23, 1999, provides
    guidance for implementing general human engineering design criteria for military
    systems, subsystems, equipment, and facilities.

    Navy. The publication “Multi-Service Tactics, Techniques, and Procedures for
    Nuclear, Biological, and Chemical (NBC) Protection,” June 2003, designated as
    Navy Tactics, Techniques, and Procedures 3-11.27 within the Navy, contains
    information for planning and executing operations in an NBC environment. Navy
    sponsors use the publication to help define capability requirements for systems
    operating in a NBC environment.

    The Deputy Chief of Naval Operations for Resources, Requirements, and
    Assessments (the Navy’s requirements gatekeeper) coordinates staffing,
    validation, and approval of the CPDs for all Navy acquisition programs within the
    Joint Capabilities Integration and Development System process. Staff from the
    Office of the Deputy Chief of Naval Operations advised that the NSWC-PC staff
    was drafting the RAMICS CPD for the Navy’s requirements gatekeeper. The
    gatekeeper will review and coordinate the draft CPD with other DoD Components
    with potential interest in participating in the acquisition program. After
    completing the coordination process, the gatekeeper will forward the draft CPD to
    the Vice Chief of Naval Operations for validation and approval.


Defining Capability Requirements
    The Commander, NSWC-PC did not adequately define significant system
    requirements in the draft CPD to support the LRIP decision planned for August
    2008. Specifically, the draft CPD did not adequately define:

           •   computer memory and processing margins for computer hardware,

           •   NBC survivability requirements, and
           •   required architecture product descriptions to define system
               characteristics and performance for information exchanges.

    Computer Memory and Processing Capacities. CJCS Instruction 3170.01E
    requires that the CPD define projected system capabilities with sufficient
    accuracy to begin production. Additionally, CJCS Manual 3170.01B states that
    CPDs should present system performance attributes in output-oriented,
    measurable, and testable terms. The March 23, 2006, version of the draft CPD
    did not define computer memory and processing capacities in a manner to support
    production and testing. Instead of stating output-oriented measurable and testable
    terms, the draft CPD stated that “computer hardware resource use would be
    measured and adhere to the requirements mandated by the contract.” This
    condition occurred because the NSWC-PC staff did not adhere to policy and
    guidance provided in CJCS Instruction 3170.01B and CJCS Manual 3170.01B
    respectively, in drafting the CPD. After discussion with the audit staff, the
    NSWC-PC staff revised the May 18, 2006, version of the draft CPD to define
    computer memory and processing margins. The revised draft CPD referenced


                                        14
computer memory and processing capacities in the RAMICS performance
specification document. The performance specification document requires that
the contractor design RAMICS so that computer memory and processing capacity
will provide a 50 percent reserve to allow the system to operate efficiently and to
expand in the future.

Nuclear, Biological, and Chemical Survivability Requirements. The March
and May 2006 versions of the draft CPD did not define NBC survivability
requirements for all NBC environments in which RAMICS will operate. Those
requirements must be defined for a tester to perform developmental and
operational tests. Specifically, the draft CPDs state:
       The system will be operable by crew wearing NBCC [nuclear,
       biological, and chemical contamination] protective equipment. The
       system will be configured for post mission decontamination so that it
       can be safely maintained by unprotected personnel. Munitions and
       system modules used in this system will be designed to resist threats,
       but the system is not expected to survive conventional or initial nuclear
       weapons effects.

The draft CPDs did not fully define the required capabilities for operating and
decontaminating the system as discussed in the following sections.

        Operating the System. Navy Tactics, Techniques, and
Procedures 3-11.27 defines five levels (0 through 4) of mission-oriented
protective posture equipment for personnel working in an NBC environment. As
written, the draft CPDs only requires that the RAMICS be operable by crew
wearing NBC contamination protective equipment. Navy Tactics, Techniques,
and Procedures 3-11.27 states that the amount of protective equipment the crew
would wear would vary depending on the mission-oriented protective posture
level at which they were operating. For example, Mission-Oriented Protective
Posture Level 1 (used when an attack in theater is possible) involves personnel
wearing protective over-garments and field gear, while carrying footwear covers,
masks and gloves. Mission-Oriented Protective Posture Level 4 (used when the
highest degree of protection is required or if chemical or biological agents are
present) involves personnel wearing masks, hoods, footwear covers, and gloves,
in addition to the over-garments and field gear worn at Mission-Oriented
Protective Posture Level 1.

Because of the variability in the amount of protective equipment the crew could
wear, the CPD should specify the required Mission-Oriented Protective Posture
Levels at which the crew will operate RAMICS. Additionally, CJCS
Manual 3170.01B advises that, when addressing system survival capabilities in
adverse environments, the CPD should define capabilities in terms of full or
percent degraded when operating a system in an adverse environment. The CPD
did not specify whether RAMICS will operate at full or at some percentage
degraded capability when operating in an NBC environment. This condition
occurred because the NSWC-PC staff did not consider NBC criteria in
Navy Tactics, Techniques, and Procedures 3-11.27 and CJCS Manual 3170.01B
when defining NBC survivability requirements in the draft CPDs.



                                         15
            Decontaminating the System. Military Standard 1472F states that the
     design of the equipment will be compatible with NBC protection requirements
     and permit performance of mission-essential operations, communications,
     maintenance, resupply, and decontamination tasks by suitably clothed, trained,
     and acclimatized personnel for the survival periods and NBC environments
     required of the system. Further, it states that the design will facilitate NBC
     hardness surveillance and lessen the likelihood that NBC hardness will be
     reduced. Hardness is the ability of a system to withstand a hostile environment.
     The draft CPDs did require that RAMICS be configured for post-mission
     decontamination so that it can be effectively maintained by unprotected
     personnel. However, the CPDs did not address system resistance to hardness
     reductions through exposure to NBC environments or through the
     decontamination process after exposure has occurred. This condition occurred
     because the NSWC-PC staff did not realize that system hardening against NBC
     must be defined in measurable and testable terms in the CPDs.

     Descriptions of Architecture Products. CJCS Instruction 6212.01D lists
     16 descriptions of architecture products that the CPD must include. The
     Instruction states that the descriptions of architecture products are an element of
     the net-ready key performance parameter. Sponsors use this key performance
     parameter to define the system characteristics and performance metrics required
     for the timely, accurate, and complete exchange of information. The March 23,
     2006, version of the draft CPD did not include 11 of the 16 required descriptions
     of architecture products. After discussion with audit staff during May 2006, the
     NSWC-PC staff included 13 of the 16 required descriptions in the May 18, 2006,
     version of the draft CPD. The NSWC-PC staff also included the statement that
     RAMICS information exchange would be limited to information sent through a
     dedicated fiber optic cable to the common console in the MH-60S helicopter.
     Further, the updated draft CPD states that testers can verify the satisfaction of
     net-ready requirements only through the MH-60S helicopter. However, the
     NSWC-PC staff did not modify the draft CPD to explain that because of its
     limited requirements to exchange information with the MH-60S helicopter, the
     three excluded architecture product descriptions were not applicable to RAMICS.
     Appendix D lists the16 descriptions of architecture products defined in CJCS
     Instruction 6212.01D and shows which of the descriptions were included in the
     March and May 2006 draft CPDs for RAMICS.

     The incomplete documentation of product descriptions for RAMICS occurred
     because NSWC-PC staff did not follow guidance in CJCS Instruction 6212.01D
     regarding documenting reasons for omitting descriptions of architecture products.
     Specifically, CJCS Instruction 6212.01D states that the Joint Staff can waive the
     requirement for certain descriptions as necessary based on the presence or
     absence of a net-ready key performance parameter.


Defining System Quantities and Cost
     CJCS Instruction 3170.01E requires that the CPD define the production quantities
     specific to an increment of an acquisition program. CJCS Manual 3170.01B
     states that the CPD should define the assets required to obtain full operational


                                         16
    capability, to include asset quantities needed for operations, maintenance, and
    training. The March 23, 2006, draft CPD specified fielding a total of 58 RMKs.
    In addition to not separately breaking out the number of RMKs required for
    operations, maintenance, and training as discussed in CJCS Manual 3170.01B, the
    requirement for 58 RMKs was no longer current.

    This condition occurred because the Navy changed its plans for operating the
    MH-60S helicopter. In 2004, the Navy decided to operate the MH-60S helicopter
    (with RAMICS and the four related mine countermeasure systems) from the
    developmental littoral combat ship rather than from aircraft carriers, as originally
    planned. With carrier basing, the Navy planned to have 2 RMKs for each
    MH-60S helicopter, which was the basis for requiring 58 RMKs. Because the
    littoral combat ship will have less storage space than the carrier, the Navy plans to
    require one RMK for each littoral combat ship that has the mine countermeasure
    mission. Additionally, the Navy has not decided how many littoral combat ships
    it will buy, or how many multiple-mission littoral combat ships it will equip for
    the mine countermeasures mission. Because the NSWC-PC staff did not know
    how many RAMICS the Navy would require, they could not accurately estimate
    the systems life-cycle cost in the CPD as specified in CJCS Manual 3170.01B.
    Within the Navy, the Deputy Chief of Naval Operations for Resources,
    Requirements, and Assessment has responsibility for defining the total number of
    Rapid Airborne Mine Clearance Systems required for operations, training, and
    maintenance.


Conclusion
    Without a CPD that fully defines all essential and mandatory capability
    requirements, the Navy will not be able to verify through testing that RAMICS
    will provide the capabilities the warfighter needs. Further, until the Navy is able
    to define the number of system mission kits required and the related life-cycle
    cost of operating and supporting those systems, the Navy will not be able to
    effectively plan and budget for RAMICS.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of Navy comments, we revised
    Recommendation B.3. The recommendation no longer requires the Navy to
    modify the contract to require RAMICS to operate in nuclear, biological, and
    chemical environments. The Commander, Naval Surface Warfare Center,
    Panama City determined that nuclear, biological, and chemical requirements were
    no longer valid for the RAMICS program; therefore, the contract does not need to
    include that requirement.




                                         17
B.1. We recommend that the Commander, Naval Surface Warfare Center,
Panama City, Florida, update the draft capability production document for
the Rapid Airborne Mine Clearance System in accordance with:

      a. Chairman of the Joint Chiefs of Staff Instruction 3170.01E, “Joint
Capabilities Integration and Development System,” May 11, 2005, to define
in measurable terms and verifiable through test and evaluation, computer
memory and processing margins to support systems capability growth.

Management Comments. The Deputy Assistant Secretary of the Navy for
Integrated Warfare Systems, responding for the Commander, Naval Surface
Warfare Center, Panama City, concurred. She stated that the Commander would
update the draft CPD to state:
       Computer hardware resource utilization such as processor capacity,
       memory capacity, input/output device capacity, auxiliary storage
       capacity, and communications/network equipment capacity will be
       measured and adhere to the requirements. The system shall be designed
       so that processing and memory utilization will allow for a 50% reserve
       capacity to provide for efficiency of operation and expandability.

The Deputy Assistant Secretary stated that the updated memory and processing
requirements would align with requirements stated in the RAMICS performance
specification. The Deputy Assistant Secretary expected the Commander to
complete the CPD by March 31, 2007.

Audit Response. The Deputy Assistant Secretary’s comments were responsive to
the recommendation.

       b. Chairman of the Joint Chiefs of Staff Manual 3170.01B,
“Operation of the Joint Capabilities Integration and Development System,”
May 11, 2005, to define in measurable terms and verifiable through test and
evaluation, nuclear, biological, and chemical requirements to protect
equipment from system degradation.
Management Comments. The Deputy Assistant Secretary concurred in
principle. She stated that although our recommendation to define requirements in
measurable terms was valid, the Airborne Mine Counter Measures Specification
did not include a requirement for RAMICS to operate in nuclear, biological, and
chemical environments. Therefore, the Deputy Assistant Secretary stated that the
Commander, Naval Surface Warfare Center, Panama City deleted the nuclear,
biological, and chemical requirements from the draft CPD.

Audit Response. The Deputy Assistant Secretary’s comments were responsive to
the recommendation. The Airborne Mine Counter Measures Specification defines
performance specifications for the MH-60S helicopter, which will carry
RAMICS. Because the performance specification did not require the MH-60S to
operate in nuclear, biological, and chemical environments, logically the CPD for
RAMICS does not need to include a requirement for RAMICS to operate in these
environments.



                                        18
       c. Chairman of the Joint Chiefs of Staff Instruction 6212.01D,
“Interoperability and Supportability of Information Technology and
National Security Systems,” March 8, 2006, to define architecture product
descriptions that are relevant to the Rapid Airborne Mine Clearance System.

Management Comments. The Deputy Assistant Secretary concurred. She
stated that the Commander, Naval Surface Warfare Center, Panama City would
update the draft CPD. The update would clarify that architectural products
descriptions for AV-1 (Overview and Summary), OV-3 (Operational Exchange
Matrix), and TV-2 (Technical Standards Forecast) would not be included in the
draft CPD because of the limited requirements for RAMICS to exchange
information with the MH-60S helicopter.

Audit Response. The Deputy Assistant Secretary’s comments were responsive to
the recommendation.

B.2. We recommend that the Deputy Chief of Naval Operations for
Resources, Requirements, and Assessment define the total number of Rapid
Airborne Mine Clearance Systems required for operations, training, and
maintenance, and the projected life-cycle cost for the Rapid Airborne Mine
Clearance System in accordance with Chairman of the Joint Chiefs of Staff
Manual 3170.01B, “Operation of the Joint Capabilities Integration and
Development System,” May 11, 2005.

Management Comments. The Deputy Assistant Secretary of the Navy for
Integrated Warfare Systems, responding for the Deputy Chief of Naval
Operations for Resources, Requirements, and Assessment, concurred. She stated
that staff of the Deputy Chief of Naval Operations preliminarily planned to
procure 48 RAMICS, including 24 to support operational requirements, 2 for
spares, and 22 to support training requirements. She stated that the operational
and training requirements could change as a result of two ongoing studies that the
staff of the Deputy Chief of Naval Operations were conducting in support of the
FY 2010 program objective memorandum. Following completion of the two
studies and any resulting adjustments to the planned overall RAMICS buy, the
staff of the Deputy Chief of Naval Operations will update the draft CPD and
finalize the life-cycle cost estimate during the first quarter of FY 2008, in support
of the LRIP decision.

Audit Response. The Deputy Assistant Secretary’s comments were responsive to
the recommendation.

B.3. We recommend that the Program Manager, Mine Warfare modify
contract N00024-02-C-6324 with Northrop Grumman Corporation, as
required, to ensure that the contractor designs the Rapid Airborne Mine
Clearance System to meet the revised capability requirements in the draft
capability production document resulting from implementing
Recommendations B.1.a. and B.1.c.
Management Comments. The Deputy Assistant Secretary of the Navy for
Integrated Warfare Systems, responding for the Program Manager, Mine Warfare,
concurred. She stated that NSWC-PC was in the process of writing the statement of


                                     19
work for the FY 2008 RAMICS contract with Northrop Grumman. She stated that
the program manager would provide the updated draft CPD to Northrop Grumman.
The Deputy Assistant Secretary stated that corrective action would be completed by
July 30, 2007.

Audit Response. The Deputy Assistant Secretary’s comments were responsive to
the recommendation.




                                    20
           C. Establishing Defense Contract
              Management Agency Support
              Responsibilities
           The approved memorandum of agreement (MOA) between the
           Commander, DCMA Aircraft Integrated Maintenance Operations
           (AIMO), Melbourne, Florida, (the Commander) and the Program
           Manager, MW, which the Commander had begun reviewing in June 2006,
           did not adequately define required DCMA AIMO support to the RAMICS
           program office. Specifically, the MOA:

                  •   was not tailored to focus DCMA AIMO support on priorities
                      and risk areas associated with the RAMICS program,

                  •   did not clearly define the role of DCMA AIMO in monitoring
                      the contractor’s efforts in engineering and integrated logistics
                      support, and

                  •   did not delineate responsibilities between DCMA AIMO staff
                      and the Program Manager, MW technical representatives for
                      monitoring subcontractors.

           Also, the Commander did not formulate a surveillance plan to implement
           the program support that was defined in the MOA. The MOA and
           surveillance plan conditions occurred because the Commander did not
           follow provisions in the DCMA Guidebook for preparing those
           documents. Specifically, the DCMA Guidebook states that MOAs should
           focus on program risks and clearly state the support that DCMA will
           provide. Additionally, the DCMA Guidebook states that after establishing
           the MOA, DCMA staff should prepare a surveillance plan to implement
           the MOA program support requirements. Also, the Program Manager,
           MW determined the need for Navy technical representatives at NSWC-PC
           to monitor subcontractors after the approval of the MOA. Therefore, the
           responsibilities for DCMA AIMO and NSWC-PC staffs to monitor the
           subcontractors were not included in the MOA. As a result, DCMA AIMO
           was not able to focus its limited staffing resources on providing the
           Program Manager, MW with timely and meaningful insights and
           recommendations regarding those aspects of contractor performance that
           were most critical to successfully developing RAMICS.


Regulations and Guidance for Defense Contract Management
  Agency Support
    Federal and DoD regulations and guidance define the Commander’s role in
    supporting the Program Manager, MW as he develops the RAMICS.




                                        21
    Federal Acquisition Regulation. Federal Acquisition Regulation 42.302,
    “Contract Administration Functions,” specifies the contract administration
    functions that Federal organizations normally delegate to contract administration
    offices. Those contract administration functions include program status reporting;
    assessing contractor compliance with contract terms; surveilling contractor
    engineering efforts and management systems; and reviewing and evaluating the
    contractor’s logistics support, maintenance, and modification programs.

    DoD Regulation and Guidance. The Defense Federal Acquisition Regulation
    Supplement and the DCMA Guidebook provide policy and guidance within the
    DoD.

             Defense Federal Acquisition Regulation Supplement. The Defense
    Federal Acquisition Regulation Supplement Subpart 242.74, “Technical
    Representation at Contractor Facilities,” November 9, 2005, requires the Program
    Manager, MW to issue a letter of intent to the contract administration office
    commander listing the assignment location, starting and ending assignment dates,
    technical duties assigned, authority delegated, and support required when
    program managers conclude that they need technical representation in contractor
    facilities.

           Defense Contract Management Agency Guidebook. The DCMA
    Guidebook provides DCMA staff with on-line access to information for
    performing outcome-based program management support for DoD acquisition
    programs. This support includes:

           •   establishing MOAs with program managers that focus on desired
               program outcomes;

           •   establishing surveillance plans detailing the tasks necessary to meet
               the provisions of the MOA; and

           •   establishing and managing program support teams led by program
               integrators to carry out the tasks documented in the surveillance plan.

    DCMA uses outcome-based program support because of its commitment to
    performance-based management. Specifically, the DCMA Guidebook states that
    each program is burdened with a unique blend of risk elements, some of which
    DCMA can help manage and others that are beyond DCMA’s ability to influence.
    Therefore, in designing outcome based MOAs, DCMA should focus on those risk
    elements for which it can provide meaningful assistance to the program manager.


Establishing the Memorandum of Agreement
    On November 16, 2005, the Commander and the Program Manager, MW
    approved the “Memorandum of Agreement and Customer Service Agreement
    Between the Mine Warfare Program Office Program Executive Office Littoral
    Mine Warfare, Washington Navy Yard (RAMICS) and DCMA Aircraft
    Integrated Maintenance Operations, Melbourne, Florida (DCMA AIMO).” On


                                        22
June 2, 2006, our audit staff sent an e-mail to the DCMA AIMO program
integrator for RAMICS. The e-mail stated that we planned to review the MOA
and other DCMA AIMO documentation relating to supporting the Program
Manager, MW in developing RAMICS. On June 5, 2006, the Commander
requested that the program integration team assigned to RAMICS review the
MOA. We discussed the MOA with DCMA AIMO staff from June 19 through
June 23, 2006. The MOA, as approved, did not conform to the DCMA
Guidebook requirements. Specifically, the MOA:

       •   was not tailored to focus DCMA AIMO support on program priorities
           and risk areas;

       •   did not clearly define DCMA AIMO role in monitoring the
           contractor’s efforts in engineering and integrated logistics support; and

       •   did not delineate responsibilities between DCMA AIMO and
           NSWC-PC for monitoring subcontractors.

Tailoring the Memorandum of Agreement. The DCMA Guidebook states that
the focus of program support activities revolves around mitigating program risk.
Accordingly, the Guidebook states that the Program Manager, MW should
identify those program risk areas that DCMA has the ability to influence and for
which the Program Manager, MW requires DCMA assistance. For RAMICS, a
major system, the Commander’s assigned program integrator had not established
an MOA that focused on specific program risk areas. Instead, the program
integrator used an MOA for a major Defense acquisition program as the template
for establishing the MOA. Because the program integrator used that template, he
did not focus and prioritize DCMA support in the MOA to the RAMICS program.
As a result, DCMA agreed to perform more responsibilities than the program
support team could actually accomplish. Because of higher program oversight
responsibilities, the program integrator estimated that he spent 25 percent of his
available time on RAMICS, while members of the program support team devoted
a lesser percentage of their available time to accomplishing RAMICS
management support responsibilities.

Defining Role for Monitoring Systems Engineering and Integrated Logistics
Support. The MOA needed to more clearly define the DCMA role for
monitoring the contractor’s efforts in systems engineering and integrated logistics
support.

        Engineering Support for the Systems Engineering Plan. The systems
engineering annex to the MOA, which identifies general engineering support
requirements, did not require the DCMA program support team to review and
monitor the contractors accomplishments against the systems engineering
management plan in the same manner as required for the SDP, the software
configuration management plan, the software quality plan, and the software test
plan. The draft systems engineering management plan was dated December 15,
2003. As discussed in finding A, the program office needs to update the draft
systems engineering management plan into a systems engineering plan to better
plan for RAMICS. The systems engineering plan is important because it
addresses how systems engineering will support the translation of system


                                    23
capability needs into an effective, suitable product that is sustainable at an
affordable cost. The systems engineering plan should also address the integration
of the technical aspects of the program with the overall program planning,
systems engineering activities, and execution tracking.

        Integrated Logistics Support. The MOA contained conflicting
information regarding the DCMA role in surveilling the contractor’s efforts in
developing the integrated logistics support capability for RAMICS. In Annex A,
“Customer Desired Outcomes,” the MOA stated that a desired outcome was the
“successful integration of maintainability, reliability, and logistical supportability
into the system design process.” The measured success for this desired outcome
was the accomplishment of the reliability, maintainability, and availability
requirements outlined in the RAMICS performance specification. Further,
Annex A stated that DCMA AIMO would ensure that the contractor had adequate
documented procedures in key logistical areas and was adhering to those
procedures. Annex A also stated that DCMA AIMO would ensure that the
contractor considered reliability, availability, and maintainability factors when
developing an integrated logistics support capability. Conversely, Annex F,
“Integrated Logistics Support,” stated that, “[s]ince the bulk of the effort for
integrated logistics support is being subcontracted to other suppliers, the DCMA,
AIMO logistics staff will perform very limited [integrated logistics support]
surveillance, on a by-requested case-by-case basis.” The surveillance limitations
in Annex F were not consistent with the desired customer outcome. Annex F
actually precluded DCMA from performing work necessary to achieve the desired
customer outcome.

Delineating Responsibilities of Technical Representatives. The Defense
Acquisition Guidebook encourages program managers to maximize the use of
DCMA personnel rather than assigning technical representatives to a contractor
facility. When a program manager determines that a program needs to use
technical representatives at a contractor facility, Defense Federal Acquisition
Regulation Supplement 242.7400 requires the program manager to issue a letter
of intent to the DCMA contract administration office responsible for monitoring
the contractor facility listing the technical duties and delegated authority of the
technical agents. Subpart 242.7400 also states that the program manager and the
commander of the DCMA contract administration office will negotiate a
memorandum of agreement delineating their functional administrative
interrelationships. It further states that the assigned technical agents must keep
the contract administration office fully informed of matters they discuss with the
contractor. The Defense Acquisition Guidebook also states that the MOA should
identify the duties of the technical representatives and should establish how the
technical representatives and the DCMA program integrator will coordinate and
communicate.

The Program Manager, MW determined that Navy technical representatives from
NSWC-PC were needed to monitor RAMICS subcontractors because the
NSWC-PC premier research and development capabilities allowed it to provide
the optimum level of technical oversight. DCMA AIMO agreed with the Program




                                     24
     Manager, MW decision to use NSWC-PC to monitor subcontractors because the
     NSWC-PC level of expertise was unequalled and because DCMA AIMO did not
     have on-site staff available at the subcontractors’ offices.

     Defense Federal Acquisition Regulation Supplement 242.74 allows program
     managers to assign technical representatives to perform non-contract-
     administration service technical duties and to provide liaison, guidance, and
     assistance on systems and programs. However, the existing MOA did not
     delineate responsibilities between DCMA AIMO and Navy technical
     representatives or establish how they would coordinate and communicate as
     required. DCMA AIMO staff stated that this condition occurred because the
     Program Manager, MW did not assign the technical representatives with the
     responsibility of monitoring the subcontractors until after approval of the MOA.
     Specifically, in December 2005, 1 month after the Commander and the Program
     Manager, MW approved the MOA, the Program Manager, MW requested that the
     technical representatives begin work at subcontractor locations.

     Progress in Revising the Memorandum of Agreement. Because DCMA
     AIMO began reviewing the MOA in June 2006, just before the audit staff visit,
     the audit staff helped the DCMA AIMO staff identify needed MOA revisions. As
     of December 2006, the program integrator had developed the initial draft version
     of a revised MOA that focused DCMA AIMO support on desired program
     outcomes and clarified the role of DCMA AIMO in surveilling the contractor’s
     effort in engineering and integrated logistics support.


Formulating a Surveillance Plan
     The DCMA Guidebook specifies that the surveillance plan should be an
     attachment or appendix to the MOA and should prioritize details on what the
     DCMA will do in support of an acquisition program, along with when, where, and
     how these support activities will occur. The Commander had not yet developed a
     surveillance plan to implement the program support for RAMICS as defined in
     the MOA. This condition occurred because the Commander had not taken the
     time to establish a formal surveillance plan. The surveillance plan is to provide a
     roadmap for the DCMA AIMO program support to follow in performing required
     support functions.

     After discussions with the audit staff in June 2006, DCMA AIMO began working
     to establish a surveillance plan to implement the program support defined in the
     MOA. As of December 2006, the program integrator had developed the initial
     draft version of a surveillance plan for supporting the RAMICS program.
     Because the surveillance plan was based on the MOA, DCMA AIMO could not
     finalize the plan until the program manger agreed to the updated MOA discussed
     previously.




                                         25
Conclusion
    Without a focused and complete MOA, supported with a surveillance plan,
    DCMA AIMO with its limited resources was not in a position to provide the
    Program Manager, MW with timely and meaningful insights and
    recommendations regarding the cost, schedule, and performance aspects of the
    contractor’s performance most critical to successfully developing the RAMICS.
    Without this focused input from DCMA AIMO, the Program Manager, MW
    cannot make the most informed decisions concerning RAMICS program.
    Additionally, it is possible that DCMA AIMO and NSWC-PC technical
    representatives will perform duplicative surveillance work if the MOA does not
    clearly delineate the responsibilities and functions of each group.


Recommendations, Management Comments, and Audit
  Response
    C.1. We recommend that the Program Manager, Mine Warfare and the
    Director, Defense Contract Management Agency coordinate to revise the
    memorandum of agreement for the Rapid Airborne Mine Clearance System
    to:

           a. Focus the limited Defense Contract Management Agency support
    resources on the Program Manager, Mine Warfare’s identified priorities and
    risk areas.

    Navy Comments. The Deputy Assistant Secretary of the Navy for Integrated
    Warfare Systems, responding for the Program Manager, Mine Warfare,
    concurred. She stated that the program office was working with DCMA to revise
    the MOA for the RAMICS program to concentrate on the program office’s
    priorities and risk areas.
    Defense Contract Management Agency Comments. The Acting Director,
    DCMA concurred. He stated that DCMA had revised the draft MOA into an
    outcome-based format that focused on the program manager’s identified priorities
    and risk areas. He stated that the MOA was in the review process and would be
    implemented by June 30, 2007.

    Audit Response. The Navy and DCMA comments were responsive to the
    recommendation.

          b. Reference the Rapid Airborne Mine Clearance System systems
    engineering plan as the focus for Defense Contract Management Agency
    systems engineering support.

    Navy Comments. The Deputy Assistant Secretary concurred. She stated that
    DCMA engineering support to the RAMICS program will be delineated in the
    MOA by stating the specific areas and activities that DCMA will support and by
    referencing the systems engineering plan.


                                       26
Defense Contract Management Agency Comments. The Acting Director
nonconcurred. He stated that the DCMA revised MOA will not have the systems
engineering plan as a desired outcome or the focus of engineering support.
Instead, he stated that the MOA will delineate DCMA engineering support to the
RAMICS program by stating the specific areas and activities that DCMA will
support and by referencing the systems engineering plan.

Audit Response. The Navy comments were responsive to the recommendation.
The DCMA commitment to use the MOA to delineate specific engineering
support to the RAMICS program including a reference to the systems engineering
plan meets the intent of our recommendation.

        c. Clarify the provisions regarding the support that the Defense
Contract Management Agency will provide on planning for the integrated
logistic support.

Navy Comments. The Deputy Assistant Secretary concurred. She stated that the
MOA will require DCMA to perform needed integrated logistic support in
specific areas and activities.

Defense Contract Management Agency Comments. The Acting Director
concurred, stating that the NSWC-PC will delineate required integrated logistics
support for the program in the revised MOA. He also stated that the revised
MOA will allow DCMA to provide integrated logistic support assistance as
requested by the program office.

Audit Response. The Navy and DCMA comments were responsive to the
recommendation.

        d. Clearly delineate responsibilities between Defense Contract
Management Agency personnel and Navy technical representatives from the
Naval Surface Warfare Center, Panama City, Florida, for providing support
to the Program Manager, Mine Warfare for surveillance of Northrop
Grumman subcontractors.

Navy Comments. The Deputy Assistant Secretary concurred. She stated that the
MOA will require DCMA to perform earned value analysis of subcontractor
performance by specific areas and activities in support of the program.

Defense Contract Management Agency Comments. The Acting Director
concurred, stating that the revised MOA will identify DCMA responsibilities.
The MOA will state that the Naval Surface Warfare Center, Panama City will act
as the program office’s technical direction agent for on-site surveillance of
Northrop Grumman subcontractors and will be responsible for all duties assigned
in the engineering assignment agreement. As agreed to by the program office,
DCMA responsibilities will be limited to conducting earned value analysis of
subcontractor performance and other assistance as requested.

Audit Response. The Navy and DCMA comments were responsive to the
recommendation.



                                    27
C.2. We recommend that the Director, Defense Contract Management
Agency establish a surveillance plan for the Rapid Airborne Mine Clearance
System that describes oversight activities the program integrator and
program support team will perform in support of the program.

Defense Contract Management Agency Comments. The Acting Director
concurred. He stated that DCMA functional specialists would perform
surveillance in accordance with the assigned strategies within the risk-rated
processes of the MOA and DCMA AIMO Melbourne. He stated that the
frequency and intensity of DCMA surveillance will vary depending on the
assigned risks of the processes, program phase, and activities that the contractor is
performing. He stated that DCMA will also perform surveillance activities as the
program manager requests, and that DCMA will implement the surveillance plan
in conjunction with the MOA by June 30, 2007.

Navy Comments. Although not required to comment, the Deputy Assistant
Secretary of the Navy for Integrated Warfare Systems agreed with the
recommendation. She stated that DCMA functional specialists will perform
surveillance in accordance with the assigned strategies within the MOA and in
accordance with the risk-rated processes of DCMA AIMO Melbourne. She also
stated that DCMA’s surveillance frequency and intensity will vary depending on
the assigned risks of the processes, program phase, and activities that the
contractor is performing. Further, the Deputy Assistant Secretary stated that
DCMA will also perform surveillance activities as the program manager requests,
and that DCMA will implement the surveillance plan in conjunction with the
MOA.

Audit Response. The DCMA and Navy comments were responsive to the
recommendation.




                                     28
Appendix A. Scope and Methodology
      We evaluated whether management was cost-effectively developing and readying
      the program for the LRIP phase of the acquisition process. We reviewed
      requirements and capabilities, testing, systems engineering, contracting,
      acquisition strategy, and funding documents dated from October 2000 through
      September 2006. We interviewed staff from the offices of the Assistant Secretary
      of the Navy (Research, Development, and Acquisition); the Deputy Chief of
      Naval Operations; the Commander, Operational Test and Evaluation Force; the
      Commander, Mine Warfare Command; the Program Manager, Mine Warfare; the
      Program Manager, Multi-Mission Helicopters, the Commander, Naval Surface
      Warfare Center, Panama City; the Commander, and the Director, Defense
      Contract Management Agency.

      We performed this audit from March 2006 through December 2006 in accordance
      with generally accepted government auditing standards.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      Use of Technical Assistance. Two electrical engineers and two computer
      engineers from the Electronics Engineering and Information Technology
      Branches, Technical Assessment Directorate of Investigative Policy and
      Oversight, Department of Defense Office of Inspector General assisted in the
      audit. The engineers evaluated and reviewed RAMICS systems engineering,
      software, and other acquisition planning related documentation.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the DoD Weapons Systems Acquisition high-risk area.


Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) issued a
      report discussing contract incentive fees across DoD. This subject is relevant to
      the audit of the RAMICS program, as discussed in Appendix E.

GAO
      GAO Report No. GAO-06-66, “DoD Has Paid Billions in Award and Incentive
      Fees Regardless of Acquisition Outcomes,” December 2005




                                          29
Appendix B. Background Information
           When fielded, RAMICS will provide the Navy with rapid-response, surface and
           near-surface mine reacquisition and neutralization capabilities. After reacquiring
           previously identified mines, RAMICS will fire a supercavitating* projectile from
           the MH-60S helicopter using laser targeting. By supercavitating, the projectile
           maintains its trajectory through the water and maintains enough kinetic energy to
           neutralize the targeted mine. A description of the RAMICS system, information
           on related organic airborne mine countermeasures systems, and a discussion of
           RAMICS program history and acquisition strategy follow.

           System Description. The Navy will integrate RAMICS hardware and software
           on the MH-60S helicopter. The Navy will accomplish this integration by using
           the RMK. The RMK includes four subsystems unique to RAMICS and two
           subsystems for interface with the MH-60S helicopter.

           The four subsystems unique to RAMICS are the:

                    •    targeting sensor subsystem, which is a blue-green laser and receiver;

                    •    gun subsystem, which is a MK 44 Bushmaster (the Bushmaster
                         includes a gun control unit, a turret control unit, an ammunition can,
                         an ammunition feed mechanism, and a power source);

                    •    munition subsystem, which is a MS-MK 258 Mod 1 Armor Piercing
                         Fin Stabilized Discarding Sabot Tracer cartridge (the Mod 1
                         incorporates a modified projectile nose to allow supercavitation); and

                    •    fire control subsystem, which consists of the hardware and software
                         that coordinates and controls the gun subsystem and the targeting
                         sensor subsystem.

           Two other subsystems are needed for RAMICS to interface with the MH-60S
           helicopter.

                    •    The first subsystem is the common console, which Lockheed Martin
                         Systems Integration in Owego, New York, was developing. The
                         common console is responsible for the display; command, control, and
                         recording; built-in test, direction; and management of the gun
                         subsystem and targeting sensor subsystem. The common console
                         provides the link between the portions unique to RAMICS in the RMK
                         and the helicopter operations systems.




*
    Supercavitation is the use of cavitation (forcing water to move at extremely high speed) effects to create a
    bubble of air around the projectile, which enables the projectile to travel through the water faster.



                                                       30
       •    The second subsystem is the carriage, stream, tow, and recovery
            system, which Concurrent Technologies Corporation is developing.
            The carriage, stream, tow, and recovery system will provide the
            mechanical interface to the MH-60S helicopter.

The following illustration provides a conceptual depiction of the RMK
components as integrated with the MH-60S helicopter.




           Source: Program Manager, MW

           Figure B-1. RMK Components Integrated with the MH-60S
           Helicopter

           ALMDS          Airborne Laser Mine Detection System
           LH CSTRS       Lockheed Carriage, Stream, Tow, and Recovery System




                                    31
Related Organic Airborne Mine Countermeasures Systems. The Navy plans
to install four other related Organic Airborne Mine Countermeasures systems
separately on the MH-60S helicopter. The systems are the:

      •   Sonar Mine Detecting Set, which is a towed system that will provide
          the Navy with an organic, flexible, and highly capable tool for
          detecting, classifying, and localizing bottom, close-tethered, and
          volume mines.

      •   Airborne Mine Neutralization System, which is a non-towed mine
          neutralization system that will allow the Navy to reacquire and
          neutralize previously detected unburied bottom and moored mines,
          which are too deep for RAMICS.

      •   Airborne Laser Mine Detection System, which is a non-towed system
          that will provide the Navy with a system that detects, classifies, and
          localizes surface and near-surface mines, and sends these data to the
          RAMICS or the Airborne Mine Neutralization System so that these
          systems can reacquire and neutralize the mines.

      •   Organic Airborne and Surface Influence Sweep, which is a towed
          system that will provide the Navy with a shallow water influence
          minesweeping capability to support limited mine clearance operations.




                                   32
The following illustration shows the Organic Airborne Mine Countermeasures
(MCM) concept, with RAMICS deployed along with the Sonar Mine Detecting
Set (AN/AQS-20X), the Airborne Mine Neutralization System (AMNS), the
Airborne Laser Mine Detection System (ALMDS), the Organic Airborne and
Surface Influence Sweep (OASIS), and other systems to perform mine
neutralization and clearance.




        Source: Program Manager, MW

        Figure B-2. Organic Airborne Mine Countermeasures Concept

        RMS          Remote Mine Hunting System
        LMRS         Long-Term Mine Reconnaissance System


                                      33
Program History. The RAMICS Advanced Technology Demonstration proved
the system concept in FY 2001. On July 29, 2002, RAMICS entered the system
development and demonstration phase of the acquisition process as a result of the
Navy Acquisition Executive approving Milestone B. Other significant program
events include the following.

       •   August 23, 2002 - The Program Manager, MW had the RAMICS
           system development and demonstration contract awarded to Northrop
           Grumman.

       •   July 12, 2004 - The Program Manager, MW notified the Navy
           Acquisition Executive of anticipated cost and schedule deviations
           from the approved acquisition program baseline for RAMICS because
           of revisions to the availability of the MH-60S helicopter for flight
           testing along with contractor cost and schedule overruns.

       •   April 26, 2005 -The Navy Acquisition Executive approved the
           RAMICS Acquisition Program Baseline Change 2, which postponed
           the planned LRIP decision review from February 2006 to August
           2008.

       •   December 14, 2005 - The Program Manager, MW modified the
           RAMICS system development and demonstration contract with
           Northrop Grumman to show the impact of Acquisition Program
           Baseline Change 2 on the program.

The system development and demonstration contract, as modified in December
2005, will need to be modified again to include developmental and operational
tests not currently in the contract, which need to be completed before the LRIP
decision review, as discussed in finding A.

Acquisition Strategy. The overall acquisition strategy for RAMICS is a single
step to full capability. The Navy will use an evolutionary acquisition approach to
incrementally upgrade the RAMICS. To implement the acquisition strategy for
RAMICS, the Program Manager, MW plans to:

       •   exercise the LRIP options on the system development and
           demonstration contract in FY 2008 to build two to eight systems (four
           were planned as of November 2006) and to refurbish one of the two
           engineering development models for use as a test article for the initial
           operational test and evaluation in FY 2010, and

       •   award a full-rate production contract to Northrop Grumman in the first
           quarter of FY 2011.




                                    34
Appendix C. Planned Integration Testing
   The Program Manager, MW has preliminarily planned five tests to determine
   whether the prime contractors for the RMK and the MH-60S helicopter were able
   to successfully integrate the RMK with the helicopter. The five test phases are
   the: Common Console and Cockpit Software; Weapon Systems Integration Team
   Ground Tests; Captive Carriage; Jettison (mass representative shapes); and
   Weapon Systems Integration Team Contractor Test. Discussion of the purposes
   of the five tests, whether the tests were on contract with Northrop Grumman, and
   the planned test dates follow.

   Common Console and Cockpit Integration Test. The purpose of the Common
   Console and Cockpit Software test is to test the radar altimeter function, to
   include RAMICS cockpit displays for the pilot and tactical displays for RAMICS
   operators. This test is on contract and scheduled for February 2007 through April
   2007.

   Weapon Systems Integration Team Ground Tests. The Weapon Systems
   Integration Team Ground Tests will be the first time that the components and
   special equipment unique to RAMICS, including the common console, will be
   fully integrated with a MH-60S helicopter. Contractor tests will include
   regression tests against the other four anti-mine systems that will be integrated
   with the MH-60S helicopter. These tests will determine whether changes
   necessary for the helicopter to accommodate RAMICS will affect the other
   systems. The Weapon Systems Integration Team Ground Tests will also include
   an evaluation of hardware and software changes. This test was an option on the
   contract. The Program Manager, MW had not exercised the option on the
   Northrop Grumman contract; however, the Program Manager, Multi-Mission
   Helicopters contracted for the tests with the Sikorsky Corporation (which is
   responsible for the helicopter). The Program Manager, MW plans to have the
   contractor conduct the tests in the fourth quarter of FY 2007.

   Captive Carriage. The captive carriage test will include a mounted gun, the
   common console, and a representative of the pod that will contain the RMK
   components. The representative pod will be the same size, weight, and shape of
   the actual RAMICS pod and will have the same aerodynamic properties. This test
   will determine the flight ability of RAMICS and determine whether RAMICS
   adversely affects the flight of the MH-60S helicopter. During this test a Sikorsky
   pilot will fly the helicopter to determine whether the helicopter can achieve the
   necessary flight maneuvers and speed, and has the correct center of gravity. The
   test will be run by Sikorsky with the involvement of a Navy copilot. The
   Program Manager, MW had not yet exercised the contract option for this test.
   According to the test leader for the Program Manager, MW, there is no risk to the
   program if the Program Manager, MW does not exercise this contract option
   because Sikorsky has primary responsibility for captive carriage. The captive
   carriage test is tentatively scheduled for FY 2008.

   Jettison (Mass Representative Shapes). The Jettison (mass representative
   shapes) test will ensure that RAMICS can separate quickly and cleanly from the
   MH-60S helicopter, if needed for safety purposes. The Program Manager, MW


                                       35
had not exercised the contract option for this test as of December 2006. The
Program Manager, Multi-Mission Helicopters had included the test on Sikorsky’s
contract. According to the test leader for the Program Manager, MW, this test,
like the captive carriage test phase, will not adversely affect the program if the
Program Manager, MW does not exercise the contract option for this test because
Sikorsky has primary responsibility for Jettison (mass representative shapes).
The jettison test is tentatively scheduled for FY 2008.

Weapon Systems Integration Team Contractor Test. The Weapon Systems
Integration Team Contractor Test will involve full integration of RAMICS with
the MH-60S helicopter. The test will verify that the changes to the helicopter
cockpit for RAMICS do not adversely affect the helicopter, and that RAMICS is
functional on the MH-60S helicopter. The Weapon Systems Integration Team
Contractor Test will culminate with the firing of the gun from the MH-60S
helicopter for the first time. The Weapon Systems Integration Team Contractor
Test will also enable the contractor to obtain realistic data about reliability,
availability, and maintainability data because RAMICS will be performing its full
mission, to include flying, reacquiring targets, and neutralizing targets through
firing the gun. The Program Manager, MW had not yet exercised the contract
option for the test that is tentatively scheduled for March 2008 through October
2008.




                                    36
Appendix D. Architecture Product Descriptions
             The following table lists the descriptions of the architecture products, which
             CJCS Instruction 6212.01D requires program sponsors to include in CPDs. The
             footnotes in the table column “Framework Products” show the 11 architecture
             product descriptions that were not included in the March 2006 draft CPD and the
             3 that were not included in the May 2006 CPD.

    Framework            Framework Product
                                                                     General Description
     Products            Name
      AV-11,2            Overview and Summary                       Scope, purpose, intended users, environment depicted, and
                         Information                                analytical findings.
      OV-1               High-Level Operational
                                                                    High-level graphical/textual description of operational concept.
                         Concept Graphic
                         Operational Node                           Operational nodes, operational activities performed at each node,
      OV-21              Connectivity Description                   connectivity, and information exchange need lines between
                                                                    nodes.
      OV-32              Operational Information                    Information exchanged between nodes and the relevant attributes
                         Exchange Matrix                            of that exchange.
      OV-41              Organizational
                                                                    Organizational role, or other relationships among organizations.
                         Relationships Chart
                         Operational Activity                       Operational activities, relationships among activities, inputs and
      OV-5                                                          outputs.
                         Model
                                                                    One of three products used to describe operational activity
                         Operational Event-Trace
      OV-6c                                                         sequence and timing–traces actions in a scenario or sequence of
                         Description
                                                                    events and specifies timing of events.
      OV-71                                                         System data requirements and structural business process rules of
                         Logical Data Model
                                                                    the operational view.
      SV-11              System Interface                           Identification of systems nodes, systems, and system items and
                         Description                                their interconnections, within and between nodes.
      SV-21              System Communications
                                                                    Systems nodes and their related communications lay-downs.
                         Description
      SV-41              System Functionality                       Functions performed by systems and the information flow among
                         Description                                system functions, including information assurance functions.
                         Operational Activity to
      SV-51                                                         Mapping of systems back to operational capabilities or of system
                         Systems Function
                                                                    functions back to operational activities.
                         Traceability Matrix
      SV-61              Systems Data Exchange                      Provides details of systems data being exchanged.

     SV-111                                                         Physical implementation of Logical Data Model entities, for
                         Physical Schema
                                                                    example, message format, file structures, and physical schema.
                         Technical Standards                        Extraction of standards that apply to the given architecture,
      TV-1                                                          including information assurance functions.
                         Profile
                                                                    Emerging standards that are not currently approved. The TV-2
     TV-21,2             Technical Standards
                                                                    should also be used to document technical issues affecting
                         Forecast
                                                                    program implementation.
1
 Architecture product description not included in the draft CPD dated March 23, 2006.
2
 Architecture product description not included in the draft CPD dated May 18, 2006.




                                                                               37
Appendix E. Other Matter of Interest
   During the audit we noted another matter of interest concerning the management
   of contract incentive fees.

   The Government Accountability Office (GAO) issued Report No. GAO-06-66,
   “DoD Has Paid Billions in Award and Incentive Fees Regardless of Acquisition
   Outcomes,” on December 19, 2005. GAO reported that DoD:

          •   did not effectively link award and incentive fee criteria to acquisition
              outcomes; and

          •   had acquisition schedules lengthen and costs grow, and yet still paid
              contractors billions of dollars in award and incentive fees.

   Consistent with the GAO findings, the RAMICS program office did not
   effectively link incentive fee criteria to desired program outcomes on the contract
   with Northrop Grumman. The RAMICS program office could pay incentive fees
   even though program schedules lengthened and costs grew. Specifically, the cost
   performance report for December 31, 2004, showed that the contractor was
   running 12 percent over schedule and 25 percent over cost. This report was the
   most recent cost performance report, and the contractor provided it to the Program
   Manager, MW before the Navy Acquisition Executive approved RAMICS
   Acquisition Program Baseline Change 2, June 2005. Change 2 lengthened the
   program acquisition schedule and increased program cost for completing the
   system development and demonstration phase of the acquisition process.
   Subsequently, on December 14, 2005, the Program Manager, MW used contract
   modification P00019 to:

          •   increase the total potential incentive fees on the contract from
              $2.8 million to $3.6 million; and

          •   make the criteria for earning incentive fees less stringent on three of
              the five incentive categories in the basic contract.

   The three incentive fee categories that contained less stringent criteria were:

          •   Technical Performance-System Effectiveness “Over Depth;”

          •   Scheduled Delivery; and

          •   Software Reuse.

   A comparison of the criteria in the original contract with the criteria in
   modification P00019 follows.




                                        38
Incentive Fee Category: Technical Performance – System Effectiveness
“Over Depth”

       Original Contract. RAMICS must simultaneously meet all threshold
(minimum required) performance requirements and then successfully demonstrate
system performance at the desired water depth.

       Modification P00019. RAMICS must simultaneously meet performance
requirements that can be measured in contractor ground testing and then
successfully demonstrate system performance at the desired water depth.

       Comparison. The system effectiveness criteria in modification P00019
were less stringent than those in the original contract because the contractor
ground test will not measure all of the RAMICS performance threshold
requirements. Specifically, the performance of developmental testing of
RAMICS when integrated with the MH-60S helicopter during flight tests and the
conduct of operational testing are needed to determine whether the RAMICS
meets performance threshold requirements. Further, under the revised criterion,
the contractor would receive the incentive fee earlier in the acquisition process
than under the original criterion.

Incentive Fee Category: Scheduled Delivery

       Original Contract. The delivery incentive is available only if a “fully
functional system,” meeting all of the threshold performance requirements of the
“RAMICS Performance Specification is delivered ahead of schedule.”

       Modification P00019. The delivery incentive is available only if a fully
functional system in the ground test configuration meeting all of the threshold
performance requirements of the “RAMICS Technical Performance Criteria
Table… is delivered upon completion of the Ground Test.”

         Comparison. The schedule criterion in modification P00019 was less
stringent than that in the original contract because RAMICS in the ground test
configuration will not have undergone integration testing with the MH-60S
helicopter. It will also be less mature than a fully functional system, which would
be subjected to developmental flight integration testing and operational testing.
Under this revised criterion, the contractor would also receive the incentive fee
earlier in the acquisition process than under the original criterion.

Incentive Fee Category: Software Reuse

       Original Contract. To be eligible for this incentive, the software to be
reused must be from “a fielded non-developmental system that is past Initial
Operating Capability.”

       Modification P00019. To be eligible for this incentive, the software to be
reused must be from system that has been field demonstrated or achieved a
Milestone C, LRIP decision.




                                    39
Under both the original contract and modification P00019, the contractor was
eligible to receive up to 50 percent of the software incentive pool based on
satisfactorily completing the critical design review.

         Comparison. The software reuse criterion in modification P00019 was
less stringent than that in the original contract because the software coming from
a system that has achieved an LRIP decision is normally less mature than
software that has been successfully demonstrated during an operational evaluation
supporting a full-rate production decision.

        Payment of Incentive Fee. In January 2005, the RAMICS program
office made an incentive fee payment to Northrop Grumman for software reuse.
Under the terms of the original contract, the contractor was eligible to receive up
to $313,000 of the $626,000 in the software incentive pool based on the
contractor satisfactorily completing the critical design review. After the critical
design review was held in May 2004, the incentive fee board awarded the
contractor an incentive fee of $191,477. The board based the incentive fee award
on the estimated amount of software lines of code that the contractor reused from
the Airborne Laser Mine Detection System and the RAMICS advanced
technology demonstrator. The board determined the amount of the incentive fee
based on the contractor reusing software lines of code from the Airborne Laser
Mine Detection System, a fee of $170,414, and reusing lines of code from the
RAMICS advanced technology demonstrator, a fee of $21,062. Because the
Airborne Laser Mine Detection System achieved an LRIP decision in June 2005,
its software met the software reuse criterion in modification P00019. However,
the software from the RAMICS advanced technology demonstrator did not
qualify under the software reuse provisions of modification P00019 because its
software had not been used in a system that had achieved an LRIP decision.

The ability of the contractor to demonstrate the successful reuse of software will
not be known until RAMICS has undergone thorough developmental and
operational testing. Accordingly, the RAMICS program office’s use of the results
of the critical design review may not have been the best criteria for determining
how well the contractor reused software from other proven systems in developing
RAMICS. In our opinion, the RAMICS program office would have been able to
make a more informed decision on how effectively the contractor reused software
from other proven systems after the contractor demonstrated that the reused
software enabled RAMICS to reacquire and neutralize mine targets when fully
integrated with the MH-60S helicopter. The RAMICS program office staff
advised us that on the next RAMICS contract, they would ensure that the
incentive award criteria would more clearly demonstrate that the contractor
merited an incentive fee.

Conclusion

The Program Manager, MW did not effectively in link contract incentives to
desired acquisition outcomes. Specifically, after the contractor had incurred cost
and schedule overruns, the Program Manager, MW negated the motivational
value of the incentive fees by modifying the contract to provide the contractor the
opportunity for earning higher incentive fees, for lesser accomplishments than
provided under the original contract.


                                    40
In future contracting actions, the Program Manager, MW must work to ensure
that contract incentives are linked to the contractor achieving desired acquisition
outcomes.

Corrective Actions Taken by DoD

DoD concurred with the recommendations in GAO Report No. GAO-06-66 to:

       •   address desired outcomes and the role the award fee should play in the
           overall acquisition strategy,

       •   remind the acquisition workforce to follow existing policies,

       •   provide guidance to the acquisition work force on “rollover” (applying
           unearned award fee money from one period to another), and

       •   develop a communication plan to share proven incentive strategies
           across the entire DoD acquisition workforce.

As a result, DoD has begun corrective actions to promote improved management
of award and incentive fee contracts. Specifically, on March 29, 2006, the Under
Secretary of Defense for Acquisition, Technology, and Logistics issued the
memorandum “Award Fee Contracts (FAR 16, DFARS 215, DFARS 216),”
which requires DoD Components to structure award fee contracts in ways that
focus the Government’s and contractor’s efforts on meeting or exceeding cost,
schedule, and performance requirements. The memorandum states that the
contractor’s ability to earn award fees needs to be directly linked to achieving
desired program outcomes. Additionally, the memorandum established
limitations on the ability to “roll over” unearned award fee money from one
period to another. In this regard, the memorandum states that the use of
“rollover” provisions should be the exception rather than the rule. Further, when
a contractor will miss a milestone in terms of cost, schedule, and performance, as
occurred with RAMICS, the contractor may only earn a portion of the fee that
was rolled over, even if its subsequent performance is excellent. Finally, the
memorandum states that the DoD has established the “Award and Incentive Fees
Community of Practice,” which will serve as a repository for related materials
including policy information, training courses, and examples of good award fee
arrangements.

Corrective Actions Planned by the Program Manager, Mine Warfare

The Program Manager, MW recognized that the contract incentives that were
included in the contract with Northrop Grumman were not beneficial to the Navy
and were not changed to match the rebaselined contract. The Program Manager,
MW staff stated that they were working to change the contract incentives, to
include replacing the incentives for software reuse, maintainability, and reliability
with incentives for meeting technical threshold values for RAMICS within cost
and schedule limits. We believe that the Program Manager, MW planned
corrective actions will effectively link contract incentive fee criteria to desired
program outcomes.



                                     41
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Commander, Operational, Test and Evaluation Force
Program Manager, Mine Warfare
Program Manager, Multi-Mission Helicopters
Program Manager, Littoral Combat Ships
Commander, Naval Surface Warfare Center, Panama City
Naval Inspector General
Auditor General, Department of the Navy

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                          42
Department of the Navy Comments




                    43
44
45
46
     Final Report
      Reference




     Revised




47
48
Defense Contract Management Agency
Comments




                    49
50
51
Team Members
Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
John E. Meling
Harold C. James
Patrick E. McHale
Chris O. Parrish
Bradley M. Heller
Steven P. Mazur
Jaime A. Bobbio
Charles S. Dekle
Bill K. Chang
Tam T. Phan
Jillisa H. Milner
